    DATA SUPPORTING THE ENVIRONMENTAL LIABILITY REPORTED
             ON THE FY 2000 FINANCIAL STATEMENTS


Report No. D-2001-172                         August 10, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFAA                  Air Force Audit Agency
DERP                  Defense Environmental Restoration Program
DUSD                  Deputy Under Secretary of Defense
GAO                   General Accounting Office
IG                    Inspector General
USD                   Under Secretary of Defense
                       Office of the Inspector General, DoD
Report No. D-2001-172                                                  August 10, 2001
  (Project No. D2001FC-0007)


           Data Supporting the Environmental Liability Reported
                   on the FY 2000 Financial Statements
                                Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. This
audit supports our audit of the FY 2000 DoD Agency-Wide Financial Statements,
specifically the line item for environmental liabilities. The Army, the Navy, and the
General Accounting Office also issued audit reports related to the reliability,
completeness, and supportability of environmental liabilities for FY 2000.
Environmental liabilities included estimated amounts for future cleanup of contamination
resulting from waste disposal methods, leaks, spills, and other past activity which have
created a public health or environmental risk. The FY 2000 DoD Agency-Wide
Financial Statements reported an environmental liability of $63.2 billion, which included
$37.4 billion for accrued environmental restoration costs, and $25.8 billion for other
disposal liabilities.

Objectives. The audit objective was to evaluate the reliability and completeness of the
data used to calculate the DoD environmental liability for FY 2000. This audit focused
on the accrued environmental restoration costs. We also reviewed the adequacy of the
internal control program as it applied to the audit objective.

Results. DoD is continuing to make commendable progress in establishing policy and
identifying environmental liabilities. However, the $63.2 billion reported in the FY 2000
DoD Agency-Wide Financial Statements for environmental liabilities was inadequately
supported and incomplete. Specifically, the cost-to-complete estimates of $23.4 billion
that support environmental restoration liabilities were not adequately documented and the
$14 billion accrued environmental restoration liability for training ranges was not based
on a complete training range inventory. As a result, the environmental liability line item
was unverifiable, unreliable, and understated. The environmental liabilities reported in
the DoD Agency-Wide financial statements will continue to be incomplete and misstated
until the DoD completes and revises standard policy guidance for reporting of training
ranges and recognizes all associated liabilities.

Prior Recommendations and Ongoing Actions. We are not making recommendations
involving the verification, validation, and accreditation of cost-to-complete models,
because the Military Department audit agencies previously made recommendations to
correct the deficiencies. Also, DoD is aware of and working on amending guidance for
identifying and reporting information for the Defense Environmental Restoration
Program, which is used to support environmental liabilities on the financial statements.
In addition, the General Accounting Office has made recommendations to correct the
timeliness of guidance, the lack of inventory of the reported estimates, and the lack of
guidance to recognize certain active and inactive training ranges on the financial
statements. See Appendix A for a list of these reports.

Summary of Recommendations. We recommend that the Army, Navy, and Air Force
require personnel estimating environmental liabilities for annual financial statements be
trained on what constitutes an adequate audit trail, documentation, and narratives
necessary to support estimates provided. We also recommend that the Under Secretary
of Defense (Comptroller) revise DoD Regulation 7000.14-R, to include specific guidance
for the recognition of an environmental liability when expected costs related to
preservation and maintenance at active and inactive ranges exceed the scope of the
routine compliant maintenance.

Management Comments. The Deputy Chief Financial Officer, DoD, stated that the
report contained misleading and incorrect statements, and nonconcurred with all
recommendations. The Office of the Under Secretary of Defense (Comptroller) stated
that the draft report did not reflect an awareness of past, current, and planned actions for
improving the recognition and reporting of environmental liabilities. The Office of the
Under Secretary of Defense (Comptroller) nonconcurred with our original
recommendation to design training courses explaining audit trails for personnel preparing
and estimating environmental liabilities because engineering estimates should not have
the same audit trail requirements as accounting transactions. The Office of the Under
Secretary of Defense (Comptroller) also nonconcurred that the Military Departments
should identify, accrue, and report environmental liabilities related to preservation and
maintenance of active and inactive ranges because the auditors did not provide examples
to support the assertion that the Military Departments were noncompliant. The Navy
agreed that better training was needed on required documentation to support liability
estimates, but the training courses should be designed by the Services. The Navy did not
agree to accrue and report environmental liabilities related to the preservation and
maintenance of active and inactive ranges. See the Finding section and Appendix B for a
discussion of the management comments and the Management Comments section for the
complete text.

Audit Response. The Deputy Chief Financial Officer, DoD, comments were not
responsive to the recommendations because no alternative actions were proposed. We
considered the revised DoD policy and procedures during the audit and we agree that the
revised policy and procedures have improved controls over financial statement liability.
However, we also recognized the need for further improvement. Past, current, and
planned actions for improving and reporting DoD environmental liabilities are addressed
in the executive summary, and on pages 4, 8, and 10 of the report. An environmental
estimate that will affect the financial statements should have a sufficient audit trail to
enable anyone to clearly trace the information to a source document. Environmental
liabilities often are based on estimates rather than actual costs. Nevertheless, persons
preparing the estimates should recognize that adequate source documentation and
narrative descriptions of the basis of the estimates are needed. Our conclusion on the
need for additional training on what constitutes an audit trail was based on numerous
audit reports. In addition, our discussion with Army installations personnel responsible



                                            ii
for computing and reporting environmental estimates during the audit clearly indicated
that there was a misconception on the issue of what constitutes an audit trail, and the
methods required to maintain an audit trail to support the estimate. The lack of training
and the lack of supporting documentation is a continuing problem and should be
addressed as DoD seeks to improve the reliability of its financial statements.

The reporting of an environmental liability for maintenance and preservation of active
and inactive ranges is being significantly changed in DoD Regulation 7000.14-R since
our draft report was published. We support clarification of this issue and have revised
our original recommendation in the draft report. Our revised recommendation stresses
the need for DoD Regulation 7000.14-R to require the Military Departments to recognize
that an environmental liability should be recognized when a significant problem is
discovered on an active range that would exceed the scope of routine preservation and
maintenance.

We request that the Under Secretary of Defense (Comptroller) and the Army, Navy, and
Air Force, provide comments to the final report by September 10, 2001.




                                            iii
Table of Contents

Executive Summary                                        i


Introduction
     Background                                         1
     Objectives                                         2

Finding
     Environmental Liabilities                          3

Appendixes
     A. Audit Process
         Scope and Methodology                          12
         Management Control Program Review              13
         Prior Coverage                                 15
     B. Summary of Management Comments on the Finding
         and Audit Response                             16
     C. Report Distribution                             19
Management Comments
     Under Secretary of Defense (Comptroller)           21
     Department of the Navy                             28
Background
            Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
            Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
            “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
            to prepare annual audited financial statements. Office of Management and
            Budget Bulletin No. 01-02, “Audit Requirements for Federal Financial
            Statements,” October 16, 2000, establishes the requirements for audits of these
            financial statements. This Bulletin requires the Inspector General (IG), DoD, to
            express an opinion on the DoD Financial Statements and to report on the
            adequacy of internal controls and compliance with laws and regulations. This
            report discusses the reliability and completeness of the information used to
            compute and report the DoD environmental liability for the FY 2000 DoD
            Agency-Wide Financial Statements.

            Statutory Requirements for Environmental Cleanup. The Comprehensive
            Environmental Response, Compensation, and Liability Act (Liability Act) of
            1980, as amended by the Superfund Amendments and Reauthorization Act of
            1986, established a comprehensive framework to identify, investigate, and clean
            up releases of hazardous materials. The Liability Act provides statutory
            authority for cleanup of hazardous material that could endanger public health,
            public welfare, or the environment. The Resource Conservation and Recovery
            Act of 1976, sections 6901 through 6992, title 42, United States Code, created a
            comprehensive Federal Regulatory program for hazardous waste control.

            DoD Implementation of Liability Act. The Deputy Under Secretary of
            Defense (DUSD) (Installations and Environment)1 is responsible for
            environmental cleanup within DoD. The DoD Office of Environmental
            Cleanup, as part of the Office of the DUSD (Installations and Environment),
            manages the Defense Environmental Restoration Program (DERP). The DERP
            includes active installations, formerly used Defense sites, and the base
            realignment and closure installations. The Army, Navy, Air Force, and the
            Defense National Stockpile Center all report environmental restoration activities
            in the DERP.

            Standardization of Measurement. To ensure a consistent standard within
            DoD, the DERP cost-to-complete2 computer models within each DoD
            Component must conform to DoD Instruction 5000.61, “DoD Modeling and
            Simulation Verification, Validation, and Accreditation,” April 29, 1996. This
            guidance instructs the heads of the DoD Components to plan and provide




1
    The DUSD (Installations and Environment) replaced the DUSD (Environmental Security) on
    May 15, 2001. Future references to the DUSD in this report, including past actions by the DUSD
    (Environmental Security), will show the new title.
2
    The “cost-to-complete” is a term commonly used to refer to the cost to completely restore, contain, or
    monitor a site that has been identified as an environmental hazard.

                                                       1
     resources to carry out the functional responsibilities of verification, validation,
     and accreditation. Some estimates can not be developed using a computer
     model; therefore, it is necessary that these estimates be developed based on
     engineering studies instead of relying on computer models.

     Liability for Environmental Cleanup. DoD is required to clean up
     contamination resulting from waste disposal practices, leaks, spills, and other
     past activities which have created a public health or environmental risk. DoD
     also is required to clean up certain contamination in coordination with
     regulatory agencies, their responsible parties, and current property owners. The
     FY 2000 DoD Agency-Wide Financial Statements reported an environmental
     liability of $63.2 billion. Of the $63.2 billion, $37.4 billion was for the accrued
     environmental restoration costs, and $25.8 billion was for other environmental
     disposal costs.


Objectives
     The objective was to evaluate the reliability and completeness of the data used to
     calculate the environmental liability shown on the FY 2000 DoD Agency-Wide
     Financial Statements. This audit focused on the accrued environmental
     restoration costs. We also reviewed the adequacy of the internal control
     program as it applied to the audit objective. Appendix A discusses the audit
     scope and methodology and our review of the management control program.




                                           2
     Environmental Liabilities
     The $63.2 billion reported as environmental liabilities in the FY 2000 DoD
     Agency-Wide Financial Statements was inadequately supported and incomplete.
     Specifically, the cost-to-complete estimates of $23.4 billion that support
     environmental restoration liabilities were not adequately documented and the
     $14 billion accrued environmental liability for cleanup of training ranges was
     not based on a complete training range inventory. The reported environmental
     liabilities were not adequately supported and complete because:

            • the Military Departments did not fully implement the requirement to
              maintain an adequate audit trail documenting the procedures for
              estimating environmental liabilities;

            • cost-to-complete models used to generate environmental liabilities
              were not verified, validated, and accredited as required by DoD
              Instruction 5000.61;

            • DoD has not completed its proposed range rule guidance, which
              defines a process to identify and clean up closed, transferred, and
              transferring ranges. Also, DoD did not amend and issue the DERP
              management guidance in time for the Military Departments to
              implement in the FY 2000 financial statements;

            • DoD guidance needed clarification on recognition of cleanup costs for
              certain active and inactive training ranges; and

            • personnel responsible for computing environmental liability estimates
              did not have sufficient training on how to maintain complete audit
              trails to support the estimates.

     As a result, the environmental liability line item in the FY 2000 DoD Agency-
     Wide Financial Statements was unverifiable, unreliable, and understated.

Guidance for Reporting Environmental Liabilities
     Federal Accounting Standards Advisory Board Guidance. Statement of
     Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of
     the Federal Government,” December 20, 1995, provides guidance for
     recognition of liabilities, including those arising from past environmental events,
     where the future outflow of resources is probable and reasonably estimable.
     Also, Statement of Federal Financial Accounting Standards No. 6, “Accounting
     for Property, Plant, and Equipment,” June 1996, provides accounting guidance
     for environmental cleanup and disposal liabilities related to property, plant, and
     equipment.

     DoD Guidance. In response to recommendations made in IG, DoD, Report
     No. D-2000-168, “Data Supporting the Environmental Liability Line Item on
     the FY 1999 DoD Financial Statements,” July 27, 2000, and IG, DoD, Report

                                          3
    No. 99-209, “Data Supporting the DoD Environmental Line Item Liability on
    the FY 1998 Financial Statements,” July 9, 1999, the Under Secretary of
    Defense (USD) (Comptroller) revised DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 4, chapters 13 and 14, in October 1999.
    These revised chapters provide guidance on reporting environmental and
    disposal liabilities. Also, in August 1999, DUSD (Installations and
    Environment) issued the Supplemental Management Guidance for the DERP
    requiring that all cleanup cost estimates be documented and each DoD
    Component ensure that its computer models conform to DoD Instruction
    5000.61. The Supplemental Management Guidance for the DERP provides
    procedures for documenting estimates developed both with, and without the use
    of a computer model.

    DoD Proposed Range Rule. In September 1997, DoD proposed a new
    regulation to address training range issues in response to the November 1995
    Environmental Protection Agency requirement, which discusses Military
    munitions including unexploded ordnance on ranges. The purpose of the
    proposed regulation was to define a process to identify closed, transferred, and
    transferring ranges and address risk to human health and the environment posed
    by unexploded ordnance. Other Federal agencies, such as the Office of
    Management and Budget, Environmental Protection Agency, and Federal land
    managers were extensively involved in the process. However, the process was
    put on hold in November 2000, because DoD, the Environmental Protection
    Agency and Federal land managers could not agree on several key issues, such
    as how to safely handle explosives and who would decide the remedy. As a
    result, as of March 2001, DoD did not have definitive guidance on how to
    estimate the environmental liabilities for training ranges.


Reliability and Completeness of Reported Environmental
Liabilities
    DoD is continuing to make progress in establishing, revising policy guidance
    and identifying environmental liabilities. As a result, environmental liabilities
    declined from $79.7 billion to $63.2 billion or approximately $16.5 billion
    between FY 1999 and FY 2000. However, DoD continued to have difficulty
    maintaining sufficient support for the reported amount. DoD reported $63.2
    billion as environmental liabilities in the FY 2000 DoD Agency-Wide
    Consolidated Financial Statements. Of the $63.2 billion, $37.4 billion was for
    the restoration cleanup costs, and the remaining $25.8 billion was for other
    disposal liability costs. The following table shows the reported environmental
    liabilities by each category.




                                         4
                  Reported Environmental Liabilities in the FY 2000 DoD
                           Agency-Wide Financial Statements
                                     (in millions)

Accrued Environmental Restoration Costs

                Description                   Army         Navy       Air Force     DoD Agency Wide

Active Installations-DERP Funds           $ 5,011.5      $ 3,990.0    $ 4,844.0        $ 13,845.5
Active Installations-Other Funds            1,361.3            0.0        175.5           1,539.0*
Base Realignment and Closure
  Installations                                 815.5      1,209.5        1,863.2          3,888.2
Formerly Used Defense Sites                   4,155.1          0.0            0.0          4,155.1
Closed, Transferred, and Transferring
 Ranges                                    13,101.1           53.6        829.4          13,984.1
 Subtotal                                 $24,444.5      $ 5,253.1    $ 7,712.1        $ 37,411.9

Other Environmental Disposal Liabilities

               Description                    Army         Navy       Air Force     DoD Agency Wide

Nuclear Powered Aircraft Carriers         $      0.0     $ 4,890.0    $      0.0       $ 4,890.0
Nuclear Powered Submarines                       0.0       5,270.7           0.0         5,270.7
Other Powered Nuclear Ships                      0.0         269.1           0.0           269.1
Other National Defense Weapon
 Systems                                        0.0            82.2          3.1             85.3
Chemical Weapons Disposal                  14,874.8             0.0          0.0         14,874.8
Other                                           0.0           300.8          0.0            411.8*
 Subtotal                                 $14,874.8      $10,812.8    $      3.1       $ 25,801.7

      Total                               $39,319.3      $16,065.9     $ 7,715.2       $ 63,213.6

*
    DoD Agency-Wide totals include $113.1 million reported by other Defense organizations for
    environmental liabilities.


         Maintaining an Audit Trail for Environmental Liability Estimates. DoD
         Regulation 7000.14-R, volume 1, “General Financial Management Information
         Systems and Requirements,” chapter 3, May 1993, states that accounting
         systems must have audit trails that allow transactions to be traced from initiation
         through processing to the financial statements. In response to our
         recommendations in IG, DoD, Report No. D-99-209, the DUSD (Installations
         and Environment) issued supplementary guidance for the DERP, on August 6,
         1999, to ensure that DoD Components use a consistent model for developing
         cost estimates and that an adequate audit trail is maintained to document the cost
         estimating procedures. However, audit work performed by the Military

                                                     5
           Department audit agencies showed that Military Departments had not fully
           implemented that guidance when estimating their environmental liabilities.

                      Army. The Army reported $24.4 billion of accrued environmental
           restoration costs for FY 2000. However, the Army Audit Agency could not
           attest to the accuracy and completeness of the reported amount because of the
           lack of supporting documentation.3 For example, the Army Audit Agency could
           not locate supporting documentation for 94 projects valued at $1.2 billion. In
           addition, although the Army reported a $13 billion liability for cleaning
           unexploded ordnance for its training ranges, the Army disclosed in note 14 to
           the financial statements its inability to provide a complete liability cost estimate
           for cleanup of the training ranges. As a result, the amount of environmental
           liabilities reported by the Army was unverifiable, and may be materially
           misstated.

                      Navy. The Navy reported $5.3 billion for accrued environmental
           restoration costs for FY 2000. However, Navy organizations with
           environmental cleanup sites did not maintain adequate support for the cleanup
           estimates. For example, the Naval Audit Service reported that supporting
           documentation for 35 of the 85 environmental projects reviewed was not
           adequate.4 The 85 projects reviewed, valued at $1.1 billion, included
           unsupported data of $453 million and errors of at least $25.9 million.
           Accordingly, the Naval Audit Service determined that documentation for
           transactions that make up this liability did not satisfy requirements issued by the
           Office of Management and Budget. As a result, the Navy environmental
           liabilities reported in the DoD Agency-Wide Financial Statements were not
           reliable and were misstated.

                     Air Force. The Air Force reported $7.7 billion for accrued
           environmental restoration costs for FY 2000. The Air Force Audit Agency
           (AFAA) did not perform audit work to attest to the reliability of the FY 2000
           reported amount because they believed that the Air Force needed additional time
           to fully implement the new requirements. However, AFAA stated in its
           FY 1999 audit report 5 that most of the Air Force restoration managers did not
           maintain accurate or complete cost data in the Air Force Restoration Information
           Management System. Also, the Air Force restoration managers generally relied
           on unsupported cost data from the Air Force Restoration Information
           Management System for managing environmental restoration programs.
           Management concurred with AFAA recommendations to revise guidance to
           require justification for cleanup requirements. Based on management
           comments, we concluded that the deficiencies disclosed in FY 1999 would
           continue occurring in FY 2000, because the Air Force would not be able to

3
    Army Audit Agency Report No. AA01-332 “Army’s General Fund Principle Financial Statements for
    Fiscal Year 2000, Financial Reporting of Liabilities Compilation and Data Collection,” June 20, 2001.
4
    Naval Audit Service Report No. N2001-0011, “Department of the Navy Principal Statements for Fiscal
    Year 2000: Environmental Liabilities,” February 6, 2001.
5
    Air Force Audit Agency Report No. 99052004, “Installations Support of the Environmental Restoration
    Program,” September 13, 2000.

                                                      6
           complete its corrective action until sometime in FY 2001.

           Information on Training Ranges. The FY 2000 DoD Agency-Wide Financial
           Statements include $14 billion in restoration costs for clearing unexploded
           ordnance on training ranges. However, the General Accounting Office (GAO)
           stated in Report No. GAO-01-0479 “Environmental Liabilities: DoD Training
           Range Cleanup Cost Estimates are Likely Understated,” April 11, 2001, that the
           amounts reported for training range cleanup could not be relied on and are likely
           significantly understated6 because DoD does not have a complete inventory and
           has not used a consistent methodology to compute the costs. Finally, the GAO
           concluded that without complete and accurate data, it is impossible to determine
           whether these amounts represent a reasonable estimate of the long-term budget
           implication of cleaning up DoD training ranges.

Reasons for Unreliable and Incomplete Reporting of
Environmental Liabilities
           Audits performed by the IG, DoD, the Military Department audit agencies, and
           GAO have continually reported the lack of reliable documentation to support the
           environmental liability line item of the financial statements.

           Cost-to-Complete Model. Cost-to-complete environmental cleanup estimates
           are the source of the environmental liability line item in the financial statements.
           Because the DoD Components often use computerized models to compute DERP
           cost estimates for environmental cleanup projects, the Supplemental
           Management Guidance for the DERP requires each DoD Component to ensure
           that its computer models conform to DoD Instruction 5000.61. The Instruction
           requires that DoD Components establish verification, validation, and
           accreditation policies and procedures for their models and simulations, and that
           they document the results of these procedures and make them available to other
           DoD Components. Verification is the process of determining that a model’s
           implementation accurately represents the developer’s concepts and specification.
           Validation is the process of determining the degree to which a model accurately
           represents the real world from the perspective of the model’s intended use.
           Accreditation is the official certification that a model or simulation is acceptable
           for use for a specific purpose. Audits performed by the Military Department
           audit agencies showed that cost-to-complete models used to compute the DERP
           cost estimates did not always conform to DoD Instruction 5000.61. For
           example, Navy organizations used the cost-to-complete system, Normalization
           of Data, version 4.0, to develop budgetary requirements and estimate financial
           statement liabilities for environmental restoration costs, but did not have the
           model verified, validated, and accredited. We are not making a

6
    GAO cited DoD estimates developed in 2000 showing cleanup costs at about $40 billion to $140 billion
    for closed, transferred, and transferring ranges. USD(Comptroller) personnel strongly disagreed with
    this estimate shown in the GAO report, which we cited in our draft report. USD (Comptroller) stated
    that the estimate was misleading, because it was based on a proposed, but not approved nor
    implemented, Range Rule that included estimates for cleaning up unexploded ordnance.

                                                     7
recommendation to correct deficiencies because the Military Department audit
agencies have already made recommendations in their reports.

Timeliness and Adequacy of DoD Guidance. DoD did not promptly issue
detailed guidance to enable the Military Departments to identify and report
potential environmental liabilities.

           DoD Proposed Range Rule. Military Departments did not
consistently or fully report liabilities for unexploded ordnance on training
ranges. Neither DoD nor the Military Departments could provide a complete
listing of the acreage on training ranges and the amounts reported were not
supported by an inventory of the relevant ranges. The reported amounts varied
significantly among Military Departments. For example, the Army reported
$13.1 billion of cleanup costs of closed, transferred, and transferring ranges as
liabilities in the financial statements in the FY 2000 Army Financial Statements
while Air Force and Navy only reported $830 million and $54 million as
liabilities in their financial statements, respectively. Although the Army
reported $13.1 billion of cleanup costs, it acknowledged its inability to
determine a complete cost for cleaning unexploded ordnance on ranges. This
occurred because DoD did not provide Military Departments with definitive
guidance on how to consistently identify and report cleanup costs for closed,
transferred, and transferring ranges. DoD proposed a range rule in September
1997 that defined a process to identify and report liabilities related to training
ranges. However, as of March 2001, DoD had not been able to finalize the
proposed guidance. We are not making a recommendation to correct the
deficiencies related to the timeliness of the guidance because GAO Report
No. GAO-01-479 already made those recommendations.

         Amending the Supplemental Guidance. DoD had not amended and
issued detailed guidance to address problems identified. IG, DoD, Report
No. D-2000-168, recommended that DUSD (Installations and Environment)
amend the supplemental guidance. DUSD (Installations and Environment)
concurred with the recommendations and stated that the revision would be
updated during calendar year 2000. However, as of March 20, 2001, the
supplemental guidance had not been amended. We are not making a new
recommendation to address this issue because DUSD (Installations and
Environment) was rewriting the entire DERP guidance. When the guidance is
issued, we will evaluate it to determine whether it will enhance the Military
Departments in identifying, compiling, and reporting environmental liabilities.

          Adequacy of DoD Regulation 7000.14-R. Although USD
(Comptroller) revised the DoD Regulation 7000.14-R to require the reporting of
the cleanup costs for closed, transferred, and transferring ranges, the revised
guidance did not clearly include instructions for recognizing a liability in the
financial statements for certain active and inactive ranges when the Government
is legally liable and the cost associated with the cleanup efforts is reasonably
estimable. For example, the Navy disclosed in note 14 to its financial
statements that based on their research and investigation of DoD Regulation
7000.14-R, volume 4, chapter 13, only liabilities associated with inactive and
transferring ranges should be recorded. However, GAO Report

                                     8
No. GAO-01-0479 advised that certain active and inactive training ranges may
have contamination that should also be recorded as a liability in the financial
statements because it meets the reporting criteria as defined in Statement of
Federal Financial Accounting Standards No. 5, “Accounting for Liabilities of
the Federal Government,” December 20, 1995. We are not making a
recommendation to revise DoD guidance because the GAO report already
addressed this issue and made recommendations.

Compliance with DoD Guidance. Military Departments did not have
procedures to ensure that environmental liability costs were computed and
reported in accordance with applicable DoD guidance. DoD Regulation
7000.14-R, volume 6B, chapter 10, December 2000, states that costs incurred
related to management and preservation of active and inactive ranges at active
installations, but not expected to be paid until future periods, should be accrued
and included as an environmental cleanup liability. However, note 14 of the
FY 2000 DoD Agency-Wide Financial Statements and the financial statements
issued by the Military Departments did not show that any of those costs were
included in the reported environmental liability. According to the USD
(Comptroller) personnel, DoD plans to significantly revise its guidance in this
area to delete this requirement for FY 2001 because the costs incurred in this
area are considered to be insignificant. We support this proposal and have
revised and redirected our recommendation to the USD (Comptroller).

Environmental Liability Training. Environmental liability estimates were not
prepared or supported because personnel responsible for performing the cost
estimates did not have training on how to maintain an adequate audit trail or
how to operate the computer models used to generate the cost estimates. For
example:

         •   AFAA reported that restoration managers were not proficient using
             computer models and did not understand the need to document
             requirements beyond the Future Year Defense Program. Also, the
             AFAA determined that command restoration managers generally
             did not understand proper uses of the Air Force Restoration
             Information Management Systems cost data field. Accordingly,
             managers posted cost data to the system without understanding
             reporting implications of these fields.

         •   The Navy attributed the documentation inadequacies and reporting
             errors to staff turnover and learning curves associated with updates
             to computer modeling programs used to estimate restoration costs.

These practices resulted in overstated and understated environmental liabilities.
DoD Instruction 4715.10, “Environmental Education, Training and Career
Development,” April 24, 1996, states that DUSD (Installations and
Environment) is responsible for establishing an education and training program
for Armed Forces and DoD civilian employees whose responsibilities include
planning and executing the environmental security mission. The instruction
further states that the training program should provide appropriate training so
each person could meet environmental responsibilities. Considering the
magnitude of the reported environmental liabilities and the continuing difficulty
                                     9
    of the Military Departments to provide reliable documentation, a defined
    knowledge of what is considered adequate documentation is needed. Military
    Departments should design training courses to provide basic training on the type
    of documentation and narratives appropriate to provide support for the
    environmental liability estimates.

Management Comments on the Finding and Audit Response
    The Office of the USD (Comptroller) provided lengthy comments to the draft
    report and stated that the report contained misleading, and in some instances,
    incorrect statements. Summaries of those comments along with an audit
    response are shown in Appendix B.

Conclusion
    The DUSD (Installations and Environment) and USD (Comptroller) have taken
    actions to correct some deficiencies identified by auditors by issuing additional
    guidance or revising existing guidance to improve the reliability and integrity of
    the financial statement liability. However, the definitive guidance was not fully
    implemented by the Military Departments, needed further revision, or may not
    be completed until FY 2002 at the earliest. Until standard policy guidance for
    reporting of training ranges is issued, and DoD Regulation 7000.14-R is revised
    to recognize the environmental liability for certain active and inactive ranges
    that meet criteria in Federal accounting standards for recording a liability, the
    environmental liabilities reported in the DoD Agency-Wide financial statements
    will continue to be incomplete and misstated.


  Recommendations, Management Comments, and Audit
  Response
    Revised, Deleted, and Redirected Recommendations. As a result of
    management comments and additional discussions with the USD (Comptroller)
    and DUSD (Installations and Environment) personnel, we deleted
    Recommendation 2., and revised and redirected Recommendation 3. to reflect
    DoD recent proposals on reporting costs incurred related to management and
    preservation of active and inactive training ranges.

    1. We recommend that the Assistant Secretary of the Army (Financial
    Management and Comptroller), Assistant Secretary of the Navy (Financial
    Management and Comptroller), and Assistant Secretary of the Air Force
    (Financial Management and Comptroller) require that personnel preparing
    and estimating environmental liabilities be trained on the type of
    documentation and narratives necessary to provide an adequate audit trail.

    Management Comments. The Office of the USD (Comptroller) nonconcurred
    with the original recommendation because he believes that the audit trail

                                        10
requirements for accounting transactions should not apply to engineering
estimates. The Navy concurred with the recommendation but believes that the
training should be designed by the Services.

Audit Response. The Office of the USD (Comptroller) comments were not
responsive to the recommendation. An environmental estimate that will affect
the financial statements should have a sufficient audit trail to enable anyone to
clearly trace the information to a source document. Environmental liabilities
often are based on estimates rather than actual costs. Nevertheless, persons
preparing the estimates should recognize that adequate source documentation
and narrative descriptions of the basis of the estimates are needed. The
recommendation, originally directed to the USD (Comptroller) and the DUSD
(Installations and Environment), has been redirected to the Military Departments
to place the responsibility more closely to the source of the estimates. We
request that the Army, Navy, and Air Force comment on the revised
recommendation.

2. We recommend that the Under Secretary of Defense (Comptroller)
revise DoD Regulation 7000.14, “Financial Management Regulation,”
volume 6B, chapter 10, to include specific guidance for the recognition of an
environmental liability when the costs incurred related to preservation and
maintenance at active and inactive ranges exceed the scope of the routine
compliant maintenance.

Management Comments. The Office of the USD (Comptroller) nonconcurred
with the original recommendation and stated that it is inappropriate for the
auditors to assert that the Military Departments were noncompliant without
giving any specific examples on noncompliance. Also, it is not appropriate to
recommend corrective actions based on deficiencies that might occur in the
future. The Navy also nonconcurred, stating that it does not plan on closing its
active and inactive ranges in the foreseeable future. Therefore, any estimate of
environmental restoration would be highly speculative and subject to much
change as technology advances.

Audit Response. We revised the recommendation based on management
comments and subsequent discussions. However, it is important for the Military
Departments to recognize an environmental restoration liability when the costs
incurred related to preservation and maintenance at active and inactive ranges
exceed the scope of the routine compliant maintenance. We request that the
USD (Comptroller) comment on the revised recommendation.




                                   11
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under the Chief
    Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994, and Office of Management and Budget Bulletin
    No. 01-02, we reviewed the information supporting the $63.2 billion
    environmental liability reported on the FY 2000 DoD Agency-Wide Financial
    Statements. Specifically:

             •   we assessed compliance by the Military Departments with DoD
                 Regulation 7000.14-R and the Supplemental Management Guidance
                 for the DERP;

             •   we reviewed note 14 to the financial statements related to the
                 environmental liability for the FY 2000 financial statements issued
                 by the Military Departments and the DoD Agency-Wide financial
                 statements;

             •   we evaluated the procedures used to measure the environmental
                 liabilities and the existence of policies and guidance available to
                 assist in the recognition of the liability;

             •   we reviewed the internal controls executed to ensure proper
                 measurement of environmental liabilities and evaluated the
                 implementation of cost-to-complete models within the
                 environmental program at each activity visited; and

             •   we followed up on progress in implementing the recommendations
                 contained in IG, DoD, Report No. D-2000-168.

    We also performed limited oversight of the audit work of Military Department
    audit agencies and monitored the audit processes by discussing the audit
    objectives and reviewing the audit programs, summary working papers,
    conclusions about significant issues, findings, and recommendations. Our audit
    report includes information reported by the Military Department audit agencies
    and the GAO.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure.




                                        12
             • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting
               capabilities. Transform the force by exploiting the Revolution in
               Military Affairs, and reengineer the Department to achieve a 21st
               century infrastructure. (01-DoD-02)

             • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

             •    FY 2001 Performance Measure 2.5.2: Achieve unqualified
                 opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. GAO has identified several high-
    risk areas in the DoD. This report provides coverage of the DoD Financial
    Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    support the audit conclusions.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from October 2000 through April 2001, in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD audit community. Further details are available on
    request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a


                                       13
comprehensive system of management controls that provides reasonable
assurance that programs are operating as intended and to evaluate the adequacy
of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of the Military Departments’ management controls over generating,
compiling, and reporting the FY 2000 environmental liability line item.
Specifically, we reviewed the implementation of the Army and Navy
management controls used to develop and maintain documentation of cost-to-
complete estimates. Our review involved acquiring information from the annual
statements of assurance and reviewing analysis performed by the Service audit
agencies.

Adequacy of the Management Controls. We identified material management
control weaknesses for the Military Departments as defined by DoD Instruction
5010.40. The Military Departments management controls were not adequate to
assure that installations managers maintained adequate documentation for
environmental liability estimates. The DUSD (Installations and Environment)
has developed guidance to improve the documentation of cost estimates;
however, the Military Departments needed to improve the internal controls to
fully comply with applicable guidance. The recommendations, if implemented,
will improve the accuracy and reliability of the environmental liability line item
on the DoD Agency-Wide financial statements in the future years.

Adequacy of Management’s Self-Evaluation. We reviewed management’s
self-evaluation program for the Military Departments. DoD has not issued the
FY 2000 Annual Statement of Assurance; however, the DoD FY 1999 Annual
Statement of Assurance reported the lack of policies addressing the
environmental safety management of active and inactive ranges and the cleanup
of unexploded ordnance and residue of closed, transferred, and transferring
ranges. The Army FY 2000 Annual Statement of Assurance reported systematic
deficiencies in the management of unexploded ordnance and other constituents.
Specifically, the Army does not effectively address the full life cycle perspective
of ranges, land withdrawal, munitions, and unexploded ordnance and other
constituents. The Services reported the inability to provide documented
environmental cost estimates. The Army Audit Agency review identified that
although the Army established a quality assurance program, the assessments
were concerned more with the appropriateness of actions taken and quantities of
estimated variables than with estimated cost to complete dollar amounts for the
financial statements. The Navy FY 2000 Annual Statement of Assurance
reported no material weaknesses for environmental liabilities. However, the
Naval Audit Service reported a material internal control weakness in the
assembling and reporting procedures to provide accurate and timely financial
reporting of environmental liabilities. The Air Force FY 2000 Annual
Statement of Assurance reported a material weakness in the reliability of
supporting documentation of environmental liabilities.




                                    14
Prior Coverage
    For FY 2000, Inspector General, DoD, GAO and the Military Department audit
    agencies issued the following reports related to the environmental liabilities:

    Inspector General, DoD, Report No. D-2000-168, “Data Supporting the
    Environmental Liability Line Item on the FY 1999 DoD Financial Statements,”
    July, 27, 2000

    General Accounting Office Report No. GAO-01-0479 (OSD Case No. 3052),
    “Environmental Liabilities: DoD Training Range Cleanup Cost Estimates are
    Likely Significantly Understated,” April 11, 2001

    Army Audit Agency Report No. AA01-332, “Army’s General Fund Principal
    Financial Statements for Fiscal Year 2000,” June 29, 2001

    Naval Audit Service, Report No. N2001-0011, “Department of the Navy
    Principal Statements for Fiscal Year 2000: Environmental Liabilities,”
    February 6, 2001

    GAO, the IG, DoD, and the Military Department audit agencies have also
    conducted numerous audits relating to environmental liabilities and other issues
    affecting the DoD financial statements. GAO reports can be accessed on the
    Internet at http://www.gao.gov. IG, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. Army Audit Agency reports
    can be accessed on the Internet at http://www.aaa.army.mil. Naval Audit
    Service reports can be accessed on the Internet at http://hq.navy.mil/navalaudit.
    AFAA reports can be accessed on the Internet at http://www.afaa.hq.af.mil.




                                       15
Appendix B. Summary of Management
            Comments on the Finding and
            Audit Response
   Introduction. The Office of the USD(Comptroller) provided combined
   comments that were coordinated with the DUSD(Installations and Environment)
   and the Military Departments. The Office of the USD (Comptroller) comments
   were extremely critical of the audit report. This appendix summarizes the
   Office of the USD (Comptroller) comments and provides our responses to the
   comments. The Office of the USD (Comptroller) comments are also included in
   their entirety in the Management Comments section.

   Management Comments. The audit did not recognize the past, current, and
   planned actions for improving and reporting of environmental liabilities within
   DoD. The draft report contained misleading and, in some instances, incorrect
   statements. Therefore, the report should be revised to give the reader a more
   balanced perspective on the DoD ongoing efforts to improve the reporting of
   environmental liabilities.

   Audit Response. We considered the revised DoD policy and procedures during
   the audit and we agree that the revised policy and procedures have improved
   controls over financial statement liability. However, we also recognized the
   need for further improvement. Past, current, and planned actions for improving
   and reporting DoD environmental liabilities are addressed in the executive
   summary, and on pages 4, 8, and 10 of the report. In addition, on page 8 of the
   report, we state that we are not making a recommendation to address the delay
   in amending the DERP guidance because we recognized that DUSD
   (Installations and Environment) was in the process of rewriting the entire DERP
   guidance.

   Management Comments. The audit statement that DoD guidance does not
   require the Military Departments to recognize cleanup cost for certain active and
   inactive ranges is misleading and incorrect. Active and inactive ranges are
   included in the “operating installations” category of sites that are included in
   environmental restoration activities of DoD Regulation 7000.14-R, volume 6B,
   chapter 10. The report implies that the Navy underreported environmental
   liabilities associated with its active and inactive ranges without offering any data
   to support the implication. Because DoD does not plan to close its ranges in the
   foreseeable future, costs to maintain the safety of its ranges are considered an
   ongoing maintenance expense and are not accrued as a liability.

   Audit Response. We agree that DoD is not required to report cleanup costs for
   active and inactive ranges because DoD assumes that these ranges will continue
   to operate indefinitely. However, certain active and inactive ranges may pose a
   threat to public health and the environment due to the improper maintenance or
   failure to remove contamination occurring through the routine operation. The
   cost to restore the land to a level where there is no longer a danger to public
   health and welfare, or the environment, should be reported as an environmental
                                       16
liability. DoD Regulation 7000.14-R, volume 4, chapter 14, did not provide
any instruction for recognizing a liability for the cleanup cost for this situation.

Also, DoD Regulation 7000.14-R, volume 6B, chapter 10, paragraph 101502, is
subject to interpretation. For example, the regulation states that environmental
restoration activities may be conducted at operating installations, at base
realignment and closure, at former used Defense sites, at closed, transferred and
transferring ranges, or at other non-range sites containing unexploded ordnance.
However, the regulation later states that environmental cleanup does not include
the cost of environmental compliance or pollution prevention. Expenses paid in
the current year which are associated with the preservation and maintenance of
active and inactive ranges at active installations are not included as
environmental liabilities. Furthermore, DoD Regulation 7000.14-R, volume 4,
chapter 13, states that preservation and maintenance costs at active and inactive
ranges should be included as environmental disposal.

Because the Navy does not intend to dispose of any active and inactive ranges,
they thus decided not to include a liability for preservation and maintenance that
was not expensed in the current period. The Navy interpreted that costs related
to the preservation and maintenance of active and inactive ranges should be
excluded from the reporting requirements whether or not they were
contaminated beyond the scope of routine maintenance and could result in a
potential environmental liability because those ranges would continue to be used
indefinitely. This interpretation was evident in note 14 of the FY 2000 DoD
Agency-Wide Financial Statements when the Navy stated that based on the
guidance contained in DoD Regulation 7000.14-R, volume 4, chapter 13, they
determined that only inactive and transferring ranges should be reported as
environmental liabilities. This shows that guidance is unclear that active and
inactive ranges are excluded from the reporting requirement even if the
contamination could pose a threat to public health and the environment.

Management Comments. The draft report was misleading by stating that the
“Military Departments did not have adequate procedures to ensure that the
environmental liability pertaining to preservation and maintenance of active and
inactive training ranges was reported as required.” However, the auditors did
not note any instances associated with preservation and maintenance of active
and inactive ranges that were incorrectly reported. It is inappropriate for
auditors to allege that the Military Departments did not have adequate
procedures in place if they have not identified any instances of noncompliance.

Audit Response. DoD Regulation 7000.14-R, volume 6B, chapter 10,
paragraph 101502, requires costs incurred related to management and
preservation of active and inactive ranges at active installations, but not
expected to be paid until future periods, should be accrued and included as an
environmental cleanup liability. Our conclusion was based on note 14 of the
FY 2000 DoD Agency-Wide Financial Statements and financial statements
issued by the Military Departments. Note 14 provided detailed lists of
environmental restoration liabilities and the environmental portion of disposal
liabilities as required by volume 6B, chapter 10. However, costs incurred
related to management and preservation of active and inactive ranges, but not
expected to be paid until future periods, were not mentioned in note 14. In our
                                     17
opinion, the Military Departments should have disclosed in the note whether or
not such costs were incurred to be in compliance with the guidance. The
auditors do not need examples to prove that Military Departments did incur such
costs because this was a compliance issue. Therefore, we did not attempt to
obtain an actual example. Based on discussions with USD (Comptroller)
personnel in July 2001, the USD (Comptroller) plans to significantly revise its
guidance in this area to delete this requirement because the cost incurred in this
area was insignificant based on the feedback from the Military Departments.
We agree with the proposed revision. However, we will review the costs in this
area to determine whether the amounts are insignificant.

Management Comments. The statement in the draft report that DoD estimates
cleanup costs for training ranges as high as $140 billion did not provide the
readers with a informed or balanced view of the nature of the estimate, and is
misleading. That estimate was based on a proposed “Range Rule” that was
never approved nor implemented. The Range Rule was intended to define DoD
responsibilities and requirements in the event of an unexploded ordnance
response at closed, transferring, or transferred sites. Due to a lack of consensus
between DoD and other Federal agencies, DoD withdrew the proposed Range
Rule from negotiations and it was never finalized or implemented. It is
inappropriate to base liability estimates on requirements contained in a rule that
has not been approved or implemented.

Audit Response. The intent of the report is to inform DoD that they need to
have complete information on the training ranges and a consistent costing
methodology to compute environmental liabilities; otherwise, the amount
reported in the financial statements will be incorrect and cannot be relied upon.
Our report cited a statement made by GAO in Report No. GAO-01-0479 giving
a DoD estimate of $140 billion as an example to show that the $14 billion
reported as the cleanup costs for closed, transferred, and transferring ranges in
the FY 2000 DoD Agency-Wide Financial Statements could be significantly
understated. However, in response to management comments, we removed the
$140 billion from the narrative, and added a footnote explaining that DoD did
not agree with the use of its estimate as shown in the GAO report.




                                    18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations and Environment)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget




                                         19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         20
Under Secretary of Defense (Comptroller)
Comments




                   21
      Final Report
       Reference




     Revised




     Deleted




22
  Final Report
   Reference




Changed




Deleted, but
added a footnote
to explain that
DoD no longer
supports its
estimate was
determined




                   23
     Final Report
      Reference




24
  Final Report
   Reference




Revised and
redirected




                 25
      Final Report
       Reference




     Deleted




26
 Final Report
  Reference




Revised,
redirected, and
renumbered as
Recommendation
2.




                  27
Department of the Navy Comments
                                     Final Report
                                      Reference




                                  Revised and
                                  redirected




                                  Deleted




                                  Revised,
                                  redirected, and
                                  renumbered as
                                  Recommendation 2.




               28
29
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Hoa H. Pham
Vanessa S. Adams
Brian S. Benner
Lashonda Thompson
Melanie Ulloa
Lisa C. Rose-Pressley
